  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




 CHRISTUS SAINT VINCENT REGIONAL
MEDICAL CENTER INCORRECTLY BILLED
 MEDICARE INPATIENT CLAIMS WITH
          KWASHIORKOR

    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Stephen Virbitsky
                                                 Regional Inspector General

                                                        January 2014
                                                        A-03-13-00035
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Christus Saint Vincent Regional Medical Center incorrectly billed Medicare inpatient
 claims with Kwashiorkor, resulting in overpayments of $147,000 over 3 years.

WHY WE DID THIS REVIEW

Kwashiorkor is a form of severe protein malnutrition. It generally affects children living in
tropical and subtropical parts of the world during periods of famine or insufficient food supply.
Cases in the United States are rare. The Medicare program provides health insurance coverage
primarily to people aged 65 or older; however, for calendar years (CYs) 2010 and 2011,
Medicare paid hospitals $711 million for claims that included a diagnosis code for Kwashiorkor.
Therefore, we are conducting a series of reviews of hospitals with claims that include this
diagnosis code.

Our objective was to determine whether Christus Saint Vincent Regional Medical Center (the
Hospital) complied with Medicare billing requirements for Kwashiorkor.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay.

The Hospital is a 195-bed acute-care not-for-profit teaching hospital located in Santa Fe, New
Mexico. The Hospital is part of the Christus Health System. The Hospital received $3,124,326
in Medicare payments for inpatient hospital claims that included a diagnosis code for
Kwashiorkor during our audit period (CYs 2010 through 2012). We reviewed $3,056,224 for
115 of these claims.

WHAT WE FOUND

The Hospital did not comply with Medicare requirements for billing Kwashiorkor on any of the
115 claims that we reviewed. The Hospital used diagnosis code 260 for Kwashiorkor but should
have used codes for other forms of malnutrition. For 86 of the inpatient claims, correcting the
diagnosis code resulted in no change in the DRG payment. However, for the remaining 29
inpatient claims, the errors resulted in overpayments of $147,262. The Hospital did not bill any
claims with the diagnosis code for Kwashiorkor in CY 2012.

Hospital officials attributed these errors to the medical coding software program used to code the
diagnoses.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00035)   i
WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare program $147,262 for the incorrectly coded claims and

    •   strengthen controls to ensure full compliance with Medicare billing requirements.

CHRISTUS SAINT VINCENT REGIONAL MEDICAL CENTER COMMENTS
AND OUR RESPONSE

In written comments, the Hospital agreed with our finding that the 115 claims that we reviewed
were incorrectly billed with a diagnosis code for Kwashiorkor. The Hospital described the
action it planned to take to address the overpayments and stated that the coding software had
been updated to strengthen controls over the billing of Kwashiorkor. However, for two claims in
our finding, the Hospital disagreed that the errors resulted in overpayments and provided medical
records documenting that the patients had severe malnutrition.

Based on the documentation provided for the two claims, we determined that correcting the
diagnosis code resulted in no change in the DRG or the payment amount. We modified our
finding accordingly. Three of the 34 claims discussed in the Hospital’s comments were not a
part of our audit and therefore are not included in our finding.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00035)   ii
                                                     TABLE OF CONTENTS

INTRODUCTION .....................................................................................................................1

           Why We Did This Review .............................................................................................1

           Objective ........................................................................................................................1

           Background ....................................................................................................................1
                 The Medicare Program ......................................................................................1
                 Hospital Inpatient Prospective Payment System ...............................................1
                 Christus Saint Vincent Regional Medical Center .............................................1

           How We Conducted This Review..................................................................................2

FINDING ...................................................................................................................................2

           Federal Requirements and Guidance .............................................................................2

           Incorrect Use of the Diagnosis Code for Kwashiorkor. .................................................2

RECOMMENDATIONS ...........................................................................................................3

CHRISTUS SAINT VINCENT REGIONAL MEDICAL CENTER COMMENTS
 AND OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................3

APPENDIXES

           A: Audit Scope and Methodology ................................................................................4

           B: Christus Saint Vincent Regional Medical Comments ..............................................6




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00035)                                              iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Kwashiorkor is a form of severe protein malnutrition. It generally affects children living in
tropical and subtropical parts of the world during periods of famine or insufficient food supply.
Cases in the United States are rare. The Medicare program provides health insurance coverage
primarily to people aged 65 or older; however, for calendar years (CYs) 2010 and 2011,
Medicare paid hospitals $711 million for claims that included a diagnosis code for Kwashiorkor.
Therefore, we are conducting a series of reviews of hospitals with claims that include this
diagnosis code.

OBJECTIVE

Our objective was to determine whether Christus Saint Vincent Regional Medical Center (the
Hospital) complied with Medicare billing requirements for Kwashiorkor.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge. The Centers for Medicare & Medicaid Services
(CMS) administers the Medicare program. CMS contracts with Medicare contractors to, among
other things, process and pay claims submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays inpatient hospital costs at predetermined rates for patient discharges under the
inpatient prospective payment system. The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay. The DRG and severity level are
determined according to diagnoses codes established by the International Classification of
Diseases, Ninth Revision, Clinical Modification (coding guidelines). The coding guidelines
establish diagnosis code 260 for Kwashiorkor. Because Kwashiorkor is considered a high
severity diagnosis using diagnosis code 260 may increase the DRG payment.

Christus Saint Vincent Regional Medical Center

The Hospital, which is part of the Christus Health System, is a 195-bed acute-care not-for-profit
teaching hospital located in Santa Fe, New Mexico. The Hospital received $3,124,326 in
Medicare payments for inpatient hospital claims that included diagnosis code 260 for
Kwashiorkor during our audit period (CYs 2010 through 2012) based on CMS’s National Claims
History data.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00035)   1
HOW WE CONDUCTED THIS REVIEW

Our audit covered $3,056,224 of Medicare payments to the Hospital for 115 claims that
contained diagnosis code 260 for Kwashiorkor. The Hospital did not bill any claims with
diagnosis code 260 for Kwashiorkor in CY 2012. We did not review managed care claims or
claims that were under separate review. We evaluated compliance with selected Medicare
billing requirements, but did not use medical review to determine whether the services were
medically necessary. This report does not represent an overall assessment of all claims
submitted by the Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                                 FINDING

The Hospital did not comply with Medicare requirements for billing Kwashiorkor on any of the
115 claims we reviewed. The Hospital used diagnosis code 260 for Kwashiorkor but should
have used codes for other forms of malnutrition. For 86 of the inpatient claims, correcting the
diagnosis code resulted in no change in the DRG payment. However, for the remaining 29
inpatient claims, the errors resulted in overpayments of $147,262. The Hospital did not bill any
claims with the diagnosis code for Kwashiorkor in CY 2012.

The Hospital attributed these errors to the medical coding software program used to code the
diagnoses.

FEDERAL REQUIREMENTS AND GUIDANCE

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (The Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (§ 1833(e)).

In addition, the Medicare Claims Processing Manual requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2).

INCORRECT USE OF THE DIAGNOSIS CODE FOR KWASHIORKOR

The Hospital did not comply with Medicare billing requirements for Kwashiorkor on any of the
115 claims that we reviewed, resulting in overpayments of $147,262. The coding guidelines



The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00035)   2
establish diagnosis code 260 for Kwashiorkor. However, our review of the documentation
provided did not support the billing of this diagnosis code. For 86 of the inpatient claims, the
Hospital included multiple diagnosis codes, at least one of which had a similar or greater severity
level. Therefore, removing diagnosis code 260 or replacing it with a more appropriate diagnosis
code resulted in no change in the DRG payment. However, for the remaining 29 inpatient
claims, the errors resulted in overpayments of $147,262. Hospital officials attributed these errors
to the medical coding software program used to code the diagnoses.

                                       RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare program $147,262 for the incorrectly coded claims and

    •   strengthen controls to ensure full compliance with Medicare billing requirements.

CHRISTUS SAINT VINCENT REGIONAL MEDICAL CENTER COMMENTS
AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments, the Hospital agreed with our finding that the 115 claims that we reviewed
were incorrectly billed with a diagnosis code for Kwashiorkor. The Hospital described the
action it planned to take to address the overpayments and stated that the coding software had
been updated to strengthen controls over the billing of Kwashiorkor. However, for two claims in
our finding, the Hospital disagreed that the errors resulted in overpayments and provided medical
records documenting that the patients had severe malnutrition.

The Hospital’s comments are included as Appendix B. We did not include the attachment
because it contained personally identifiable information.

Based on the documentation provided for the two claims, we determined that correcting the
diagnosis code resulted in no change in the DRG or the payment amount. We modified our
finding accordingly. Three of the 34 claims discussed in the Hospital’s comments were not a
part of our audit and therefore are not included in our finding.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00035)   3
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit period (January 1, 2010, through December 31, 2012) covered $3,056,224 in Medicare
payments to the Hospital for 115 inpatient claims that contained diagnosis code 260 for
Kwashiorkor. The Hospital did not bill any claims with diagnosis code 260 for Kwashiorkor in
CY 2012. We did not review managed care claims or claims that were under separate review.

We limited our review of the Hospital’s internal controls to those applicable to the coding of
inpatient hospital claims because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We evaluated compliance with selected
Medicare billing requirements, but did not use medical review to determine whether the services
were medically necessary. We established reasonable assurance of the authenticity and accuracy
of the data obtained from the National Claims History file, but we did not assess the
completeness of the file.

This report does not represent an overall assessment of all claims submitted by the Hospital for
Medicare reimbursement.

We conducted our fieldwork from October 2013 through December 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient paid claims data from CMS’s National Claims History
        file for the audit period;

    •   selected all paid claims that included the diagnosis code for Kwashiorkor (260);

    •   removed all managed care claims and any claims that were previously reviewed by a
        Recovery Audit Contractor;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;

    •   repriced each selected claim in order to verify that original payment by the CMS
        contractor was made correctly;

    •   requested that the Hospital conduct its own review of the 115 claims to determine
        whether the diagnosis code for Kwashiorkor was used correctly;




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00035)   4
    •   reviewed the medical record documentation that the Hospital provided to support other
        malnutrition diagnoses;

    •   discussed the incorrectly coded claims with Hospital officials to determine the underlying
        causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00035)   5
   APPENDIX B: CHRISTUS SAINT VINCENT REGIONAL MEDICAL COMMENTS


                       CHRISTUS ST. VINCENT
                       Regional Medical Center

November 15, 2013

Report Number: A-03-13-00035

Mr. Stephen Virbitsky
Regional Inspector General for Audit Services
Office of Audit Services, Region III
Dept of Health & Human Services - Office of Inspector General
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106

Dear Mr. Virbitsky:

I write to respond to your letter of October 2, 2013 which provided the results of the Office of
Inspector General's (OIG) review of CHRISTUS St. Vincent Regional Medical Center's
Medicare billing of claims with diagnosis code 260 (Kwashiorkor). The review examined claims
filed during calendar years 2010 through 2011. The OIG found that CHRISTUS St. Vincent
Regional Medical Center incorrectly billed 115 claims. Of those claims, 34 resulted in an
overpayment totaling $158,627.

CHRISTUS St. Vincent Regional Medical Center has completed its review of the claims
resulting in overpayment. For two of those claims, the patient did not have Kwashiorkor, but did
have mild, moderate or severe malnutrition. Medical documentation supporting these claims is
included with this letter. The reimbursement for these claims total $11,364.86. The remainder of
the claims at issue were incorrectly billed and CHRISTUS St. Vincent Regional Medical Center
intends to refund the overpayment, which it believes is $147,262.14.

The billing errors were due to a software issue with the 3M grouper product which resulted in the
incorrect code assignment of 260 (Kwashiorkor). Corrective action was taken by 3M with a
software update in early 2010. Unfortunately, as the audit reflects, this correction did not
immediately take hold. By 2011 however, these billing errors were reduced to two and neither of
those resulted in an overpayment. CHRISTUS St. Vincent Regional Medical Center also
conducted a follow up review and verified that there have been no additional inpatient Medicare
claims submitted with code 260 (Kwashiorkor) through September 30, 2013. Thus, CHRISTUS
St. Vincent Regional Medical Center believes the corrective action taken in 2010 has, in fact,
corrected this issue moving forward.
LEGAL\17659757\1
                        455 St. Michael's Drive Santa Fe, New Mexico 87505

The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00035)   6
CHRISTUS St. Vincent Regional Medical Center appreciates the opportunity to learn from this
review and will continue the monitor the issue to ensure future billing compliance.

Sincerely,


/Bruce J. Tassin/
President/CEO



Enclosures: (2)




 LEGAL\17659757\1
                           455 St. Michael's Drive Santa Fe, New Mexico 87505

The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00035)   7
